;>
v*

In THE

Supreme Court of tfjc iHmteb States
DAVID ALAN SCHUM,
Petitioner
v.
FORTRESS VALUE RECOVERY FUND I, L.L.C.;
SCHULTE ROTH & ZABEL. L.L.P.; LAWRENCE S. GOLDBERG;
DANIEL BERNARD ZWIRN; PERRY GRUSS;
HIGHBRIDGE/ZWIRN SPECIAL OPPORTUNITIES FUND, L.P.;
BERNARD NATIONAL LOAN INVESTORS, LIMITED,
Respondents

APPENDIX FOR
PETITION FOR WRIT OF CERTIORARI

Appendix A - Fifth Circuit Order denying rehearing (June 19, 2020)

1-3

Appendix B - Fifth Circuit Opinion (May 18, 2020)

.4-6

Appendix C - District Court Order denying rehearing (December 23, 2019)

,7

Appendix D - District Court Order (December 2, 2019)

8-20

Appendix E - Bankruptcy Court Order (April 11,2019)

.21-23

Appendix F - Bankruptcy Court Opinion (April 4, 2019)

,24-44

Appendix G - Judge Houser Finding of Facts (January 8, 2004)

,45-48

Case: 20-10016

Document: 00515458972

Page: 1

Date Filed: 06/19/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No, 20-10016
In the Matter of: RENAISSANCE RADIO, INCORPORATED,
Debtor
DAVID ALAN SCHUM,
Appellant
v.
FORTRESS VALUE RECOVERY FUND I, L.L.C.; SCHULTE ROTH &
ZABEL, L.L.P.; LAWRENCE S. GOLDBERG; DANIEL BERNARD ZWIRN;
PERRY GRUSS; HIGHBRIDGE/ZWIRN SPECIAL OPPORTUNITIES
FUND, L.P.; BERNARD NATIONAL LOAN INVESTORS, LIMITED,
Appellees

Appeal from the United States District Court
for the Northern District of Texas
ON PETITION FOR REHEARING AND REHEARING EN BANC
(Opinion 05/18/20,5 Cir.,

F.3d

Before DAVIS, SMITH, and HIGGINSON, Circuit Judges.
PER CURIAM:
wf The Petition for Rehearing is DENIED and no member of this panel nor

1

Case: 20-10016

s

Document: 00515458972

Page: 2

Date Filed: 06/19/2020

V*

judge in regular active service on the court having requested that the
court be polled on Rehearing En Banc, (FED. R. APP. P. and 5th ClR. R.
35) the Petition for Rehearing En Banc is also DENIED.
( )

The Petition for Rehearing is DENIED and the court having been polled
at the request of one of the members of the court and a majority of the
judges who are in regular active service and not disqualified not having
voted in favor, (FED. R. APP. P. and 5th ClR. R. 35) the Petition for
Rehearing En Banc is also DENIED.

( )

A member of the court in active service having requested a poll on the
reconsideration of this cause en banc, and a majority of the judges in
active service and not disqualified not having voted in favor, Rehearing
En Banc is DENIED.

ENTERED FOR THE COURT:
/s/ Stephen A. Higginson
UNITED STATES CIRCUIT JUDGE

2

Case: 20-10016

s

Document: 00515458985

Page: 1

Date Filed: 06/19/2020

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

June 19, 2020
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW:
No. 20-10016

David Schum v. Fortress Value Recovery Fund I,
et al
USDC No. 3:19-CV-978

Enclosed is an order entered in this case.

Sincerely,
LYLE W. CAYCE, Clerk

£. A
By:
Lisa E.Ferrara,Deputy Clerk
504-310-7675
Mr.
Ms.
Mr.
Ms.
Mr.
Mr.

Michael L. Cook
Katherine Drell Grissel
Adam C. Harris
Devin Lea Kerns
Matthew Walter Moran
David Alan Schum

3

Case: 20-10016

Document: 00515470050

Page: 1

Case 3:19-cv-00978-M Document 23 Filed 06/29/20

Date Filed: 06/29/2020

Page 1 of 3 PagelD 1495

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 20-10016
Summary Calendar

FILED
May 18, 2020
Lyle W. Cayce
Clerk

In the Matter of: RENAISSANCE RADIO, INCORPORATED,
Debtor
DAVID ALAN SCHUM,
Appellant
v.

FORTRESS VALUE RECOVERY FUND I, L.L.C.; SCHULTE ROTH &
ZABEL, L.L.P.; LAWRENCE S. GOLDBERG; DANIEL BERNARD ZWIRN;
PERRY GRUSS; HIGHBRIDGE/ZWIRN SPECIAL OPPORTUNITIES
FUND, L.P.; BERNARD NATIONAL LOAN INVESTORS, LIMITED,
Appellees

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:19-CV-978

Before DAVIS, SMITH, and HIGGINSON, Circuit Judges.
PER CURIAM:*
Pro se appellant David Schum appeals the district court’s order affirming

* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

4

Case: 20-10016

Document: 00515470050

Page: 2

Case 3:19-cv-00978-M Document 23 Filed 06/29/20

Date Filed: 06/29/2020

Page 2 of 3 PagelD 1496

the judgment of the bankruptcy court and enjoining him from future filings as
a vexatious litigant. We affirm.
This case arises from a series of bankruptcies. Appellant was a
stockholder of Renaissance Radio, Inc. (RRI), a company that held several radio
stations and related licenses. RRI entered bankruptcy proceedings, which
resulted in its assets’ being transferred to The Watch, Ltd. and DFW Radio
License, LLC (Watch). Watch then filed for bankruptcy, and its assets were
purchased by Highbridge/Zwirn Special Opportunities Fund, L.P. (Zwirn).
Zwirn was renamed Fortress Value Recovery Fund I LLC (Fortress), which is
the appellee in this action.
On December 28, 2018, Schum filed a motion in bankruptcy court to
reopen the RRI bankruptcy proceedings due to alleged fraud, bad faith, and
fraud on the court. The bankruptcy court denied the motion as untimely and
found no basis for reopening the proceedings. Schum appealed to the district
court, which found no error in the bankruptcy court’s decision and enjoined
further filings in this matter. Schum now argues that the lower courts
incorrectly characterized his claim as time-barred, incorrectly held that a
lender’s domicile was immaterial to the bankruptcy proceedings, and violated
his rights by enjoining him from further filings as a vexatious litigant. He also
argues that the bankruptcy court suffered from a conflict of interest because
the bankruptcy judge’s clerk was formerly employed by appellee’s counsel’s
firm.
We review the district court’s denial of relief, as well as its grant of the
injunction, for abuse of discretion. In re Pettle, 410 F.3d 189, 191 (5th Cir.
2005); Matter of Case, 937 F.2d 1014, 1018 (5th Cir. 1991); Newby v. Enron
Corp., 302 F.3d 295, 301 (5th Cir. 2002). The court’s ruling that there was no
conflict of interest is also reviewed for an abuse of discretion. See Andrade v.
Chojnacki, 338 F.3d 448, 454 (5th Cir. 2003).
5

Case: 20-10016

Document: 00515470050

Page: 3

Case 3:19-cv-00978-M Document 23 Filed 06/29/20

Date Filed: 06/29/2020

Page 3 of 3 PagelD 1497

The district court properly affirmed the bankruptcy court’s ruling that
Schum’s motion was time-barred under Federal Rule of Bankruptcy Procedure
9024 and Federal Rule of Civil Procedure 60. Although styled as a motion to
reopen, the relief that Schum seeks requires a revocation of the RRI
confirmation order. Rule 9024 also provides that “a complaint to revoke an
order confirming a plan may be filed only within the time allowed by § 1144.”
This provision requires a party to move for revocation of a reorganization plan
within 180 days. 11 U.S.C. § 1144. Schum also requests relief under Rule 60(b)
and (d). Rule 60(c) requires that a motion to reconsider be made “within a
reasonable time.” Fed. R. Civ. P. 60(c). Schum waited far beyond these
deadlines to file the instant action, and he provides no justification for his
delay. Schum alleges that he discovered the information giving rise to his
claims in 2012, at least six years before he filed his motion in bankruptcy court.
This precludes relief under Federal Rule of Bankruptcy Procedure 9024 and
Federal Rule of Civil Procedure 60(b) and (d).
Schum’s other claims are similarly meritless. He has not shown cause to
reopen the bankruptcy proceeding over a decade after its conclusion under 11
U.S.C. §§ 350(b) or 502(j). And Schum argues that the bankruptcy court
suffered from a conflict of interest, but the clerk who was formerly employed
by the firm representing the appellee was recused from his case and played no
part in the court’s decision. Finally, we find no error in the district court’s
decision to enjoin Schum from further filings relating to the Watch or RRI
bankruptcies. This ruling is supported by Schum’s long history of repetitive
and frivolous filings pertaining to this matter in this and other federal courts.
See, e.g., Schum v. F.C.C., 617 F. App’x 5 (D.C. Cir. 2015), cert, denied, 136 S.
Ct. 1672; In re Watch Ltd., 295 F. App’x 647 (5th Cir. 2008); In re Watch Ltd.,
257 F. App’x 748 (5th Cir. 2007).
For these reasons, we AFFIRM the judgment of the district court.
6

Case 3:19-cv-00978-M Document 17 Filed 12/23/19 Page 1 of 1 PagelD 1478
INTH UNITE STATES DIST ICT COU T
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
DAVID A. SCHUM,
Appellant,
v.
FORTRESS VALUE RECOVERY FUND I
LLC, et a!,
Appellees.

§
§
§
§
§
§

Civil Action No. 3:19 cv-00978-M

§
§
§
§

ORDER
Before the Court is pro se Appellant’s “Petition for Panel Rehearing.” [ECF No. 16].
The Court previously declared Appellant a vexatious litigant and enjoined him from making any
future filings related to the bankruptcies of Renaissance Radio, Inc., the Watch, Ltd., or DFW
Radio License, LLC without first obtaining permission to do so from the United States
Bankruptcy Court for the Northern District of Texas. [ECF No. 15 at 12]. Appellant has not
obtained such permission before filing the current Petition. Even if he had done so, there is no
“panel rehearing” available to Appellant. If directed to this Court, such a Motion would have
been DENIED.
SO ORDERED.
December 23, 2019.
WARA M. G. L1
[EF JUDGE

1-

7

Case 3:19-cv-00978-M Document 15 Filed 12/02/19

Page 1 of 13 PagelD 1421

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
DAVID A. SCHUM,

§
§
§
§
§
§

Appellant,
v.
FORTRESS VALUE RECOVERY FUND I
LLC and SCHULTE ROTH & ZABEL LLP,

Civil Action No. 3:19-cv-00978-M

§
§
§
§

Appellees.

ORDER
Before the Court is Appellant David A. Schurn’s appeal of the bankruptcy court’s Order
Denying Motion to Reopen Bankruptcy Case, Reconsider an Order, and Reconsider and Deny
Certain Claims, and his Motion for a Ruling on Potential Conflict of Interest. [ECF Nos. I, 12].
Also before the Court is Appellees’ request in their Response that Appellant be declared a
vexatious litigant and enjoined from future filings without Court approval. [ECF No. 9 at 30].
For the following reasons, the bankruptcy court’s Order is AFFIRMED. Furthermore,
Appellees’ request to declare Appellant a vexatious litigant and enjoin him from future filings
without leave is GRANTED.
I.

Factual and Procedural Background
Appellant was a stockholder of Renaissance Radio, Inc. (“RRI”), which owned several

radio stations and related licenses, when it was forced into involuntary bankruptcy. That
proceeding culminated in 2004 with a confirmed chapter 11 plan that transferred all of RRI’s
assets and operations to The Watch, Ltd. and its affiliate, DFW Radio License, LLC
(collectively, the “Watch”). Bernard National Loan Investors, Ltd. (“BNLI”) was the lender for
the Watch and Highbridge/Zwirn Special Opportunities Fund, L.P. (“Zwim”) was agent for the

8

Case 3:19-cv-00978-M Document 15 Filed 12/02/19 Page 2 of 13 PagelD 1422
lender. Appellee Schulte Roth & Zabel LLP (“Schulte”) served as counsel for Zwirn in the RRI
bankruptcy proceeding, and it made successful claims for attorneys’ fees in that bankruptcy
proceeding. Within two years of the completion of the RRI bankruptcy, the Watch filed for
chapter 11 bankruptcy, and Zwirn purchased all of the assets of the Watch. Zwirn was later
renamed Fortress Value Recovery Fund I LLC (“Fortress”), which is an Appellee in this action.
Vinson & Elkins LLP (“V&E”) represented Zwirn as counsel in the Watch bankruptcy
proceeding and represents Fortress in the appealed matter.
Appellant filed the appealed Motion seeking to reopen the RRI bankruptcy case because
of alleged fraud and newly discovered information related to the domicile of BNLI. Appellees
objected to the Motion. Chief Bankruptcy Judge Douglas Dodd, of the United States Bankruptcy
Court for the Middle District of Louisiana, considered the Motion.1 Judge Dodd denied
Appellant’s Motion, finding that Appellant had “established no basis for reopening the RRI
Bankruptcy or reconsider[ing] the Objectors’ claims.” In re Renaissance Radio, Inc., No. 0333479-BJH, 2019 WL 1503787, at *10 (Bankr. N.D. Tex. Apr. 4, 2019). Appellant now appeals
the bankruptcy court’s Order.
II.

Legal Standard
A district court reviewing a bankruptcy court’s decisions applies the same standards of

review that the Fifth Circuit applies to its review of district court decisions. In re SI
Restructuring, Inc., 542 F.3d 131, 134 (5th Cir. 2008). “[A] bankruptcy court’s findings of fact
are reviewed for clear error, and its conclusions of law are reviewed de novo.” Id. Matters
within the bankruptcy court’s discretion are reviewed for abuse of that discretion. Matter of

1 Judge Dodd was temporarily assigned to the United States Bankruptcy Court for the Northern District of Texas to
preside over certain cases of Bankruptcy Judge Barbara J. Houser to facilitate Judge Houser’s participation as head
of the mediation team in the Puerto Rico insolvency cases. Clerk’s Notice 18-01, United States Bankruptcy Court
for the Northern District of Texas.
-2-

9

Case 3:19-cv-00978-M Document 15 Filed 12/02/19

Page 3 of 13 PagelD 1423

Sadkin, 36 F.3d 473, 475 (5th Cir. 1994). As the Fifth Circuit has held, “[a] Bankruptcy Court
does not abuse its discretion unless ‘its ruling is based on an erroneous review of the law or on a
clearly erroneous assessment of the evidence.”’ In re Yorkshire, LLC, 540 F.3d 328, 331 (5th
Cir. 2008).
III.

Reopening the RRI Bankruptcy Proceeding Under Federal Rule of Bankruptcy
Procedure 9024 and Federal Rule of Civil Procedure 60
Appellant appeals the bankruptcy court’s denial of his Motion to reopen the RRI

bankruptcy proceeding under Federal Rule of Bankruptcy Procedure 9024 and Federal Rule of
Civil Procedure 60. Bankruptcy Rule 9024 makes Federal Rule 60 applicable in bankruptcy
proceedings. Federal Rule 60(b) permits a court to reconsider a final judgment or order based on
newly discovered evidence that, with reasonable diligence, could not have been discovered in
time to move for a new trial under Federal Rule 59(b), or based on fraud, misrepresentation, or
misconduct by an opposing party. Federal Rule 60(d) similarly allows a court to set aside a
judgment for fraud on the court. The bankruptcy court denied Appellant’s Motion, finding his
allegations regarding the domicile of BNL1 were time-barred and insufficient under Federal
Rules 60(b) and 60(d).
A bankruptcy court’s decisions under Federal Rule 60 are reviewed for abuse of
discretion. In re Fettle, 410 F.3d 189, 191 (5th Cir. 2005). Here, the bankruptcy court did not
abuse its discretion because it did not rely on an erroneous understanding of the law or on clearly
erroneous facts. Accordingly, its Order denying Appellant’s Motion to reopen the RRI
bankruptcy proceeding under Bankruptcy Rule 9024 and Federal Rule 60 is AFFIRMED.
IV.

Reopening the RRI Bankruptcy Proceeding Under 11 U.S.C. §§ 350(b) and 502(j)
Appellant also appeals the bankruptcy court’s Order denying his Motion to reopen the

RRI bankruptcy proceeding and reconsider the RRI bankruptcy proceeding’s claims, under 11
-3 -

10

Case 3:19-cv-00978-M Document 15 Filed 12/02/19

Page 4 of 13 PagelD 1424

U.S.C. §§ 350(b), 502(j). Under § 350(b), a bankruptcy court may reopen a bankruptcy
proceeding for cause, and under § 502(j), may reconsider for cause a claim in a bankruptcy
proceeding that has previously been allowed or disallowed. The bankruptcy court denied
reopening under both provisions, finding that cause was not established under either section and
noting that too much time had elapsed to reopen. In re Renaissance Radio, Inc., 2019 WL
1503787, at *7-8.
Both rulings are reviewed for an abuse of discretion. Matter of Case, 937 F.2d 1014,
1018 (5th Cir. 1991); Matter of Colley, 814 F.2d 1008, 1010 (5th Cir. 1987). In these
determinations, the bankruptcy court did not rely on an erroneous understanding of the law or on
clearly erroneous facts. Accordingly, it did not abuse its discretion, and its Order denying
Appellant’s Motion to reopen the RR1 bankruptcy proceeding and reconsider claims under 11
U.S.C. §§ 350(b) and 5020) is AFFIRMED.
V.

Ethical Violations of the Texas Rules of Professional Conduct
Appellant appeals the bankruptcy court’s ruling that BNLI’s domicile was immaterial.

Texas Disciplinary Rules of Professional Conduct 3.03 and 8.04 prohibit dishonest conduct by a
lawyer. In finding that there was no violation of these rules, the bankruptcy court held that
BNLI’s “domicile was immaterial to the financing transaction and did not necessitate disclosure
contemplated by the rules.” In re Renaissance Radio, Inc., 2019 WL 1503787, at *7.
Materiality is a legal question that is reviewed de novo. United States v. Abroms, 947
F.2d 1241, 1246 (5th Cir. 1991), as amended on denial ofreh ’g. Based on a de novo review, the
Court determines that the bankruptcy court correctly found that the domicile of BNLI was
immaterial under Texas Disciplinary Rules of Professional Conduct 3.03 and 8.04, and its
decision in that regard is AFFIRMED.

-4-

11

Case 3:19-cv-00978-M Document 15 Filed 12/02/19

VI.

Page 5 of 13 PagelD 1425

Equitable Mootness
Appellant further appeals the bankruptcy court’s determination that his Motion was

equitably moot. Equitable mootness is a prudential consideration that allows a bankruptcy court
to decline review of a chapter 11 reorganization plan. In re Blast Energy Servs., Inc., 593 F.3d
418, 424 (5th Cir. 2010). The bankruptcy court found that Appellant’s Motion was equitably
moot under the Fifth Circuit’s three-factor test. In re Renaissance Radio, Inc., 2019 WL
1503787, at *8 (citing In re Blast Energy Servs., Inc., 593 F.3d 418, 424 (5th Cir. 2010)).
“Equitable mootness is a question of law” that is reviewed de novo. In re GWIPCS 1 Inc., 230
F.3d 788, 799 (5th Cir. 2000). Upon a de novo review, the Court concludes that the bankruptcy
court correctly applied the Fifth Circuit’s three-factor test and correctly concluded that
Appellant’s Motion was equitably moot, and its Order doing so is therefore AFFIRMED.
VIL

Additional Findings of Fact
Appellant challenges various factual statements in the bankruptcy court’s Order. The

Court concludes that none of such alleged errors are material to the challenged decisions of the
bankruptcy court, and these alleged errors, which are in any event not clearly erroneous, will thus
not be reviewed here in further detail.
VIII.

Motion to Address Conflict of Interest
Following the initiation of this appeal, Appellant filed a Motion for a Ruling on Possible

Conflict of Interest, as it “may affect this Court’s ruling on the motion on appeal.” [ECF No. 12
at 6]. The Court’s jurisdiction in this matter extends only to appeals of the judgments, orders,
and decrees of the bankruptcy court. 28 U.S.C. § 158(a). Accordingly, the Court will construe
the current Motion as a separate ground of appeal of the bankruptcy court’s Order denying the
appealed Motion.

-5-

12

Case 3:19-cv-00978-M Document 15 Filed 12/02/19 Page 6 of 13 PagelD 1426
Appellant alleges three conflicts of interest or ethical violations: 1) Judge Houser’s career
law clerk (the “law clerk”) at the time that Judge Dodd decided the appealed Motion was
formerly employed by V&E and served as counsel for Appellee Fortress (at the time known as
Zwim) in the Watch bankruptcy proceeding; 2) Judge Dodd’s conduct, in combination with the
presence of the law clerk, created an appearance of partiality that required Judge Dodd to recuse
himself; and 3) Appellee Schulte and V&E knew of issues 1 and 2 but did not bring them to the
bankruptcy court’s attention.
a) The Law Clerk
Appellant alleges that the law clerk’s prior employment at V&E, where she previously
represented Appellee Fortress in the Watch bankruptcy proceeding, created a conflict of interest.
Canon 3(F)(2) of § 302 of the Code of Conduct for Judicial Employees prohibits a law clerk
from performing her official duties in a matter in which she previously represented a party or as
to which she otherwise has personal knowledge. The evidence before the court, however, is that
the law clerk recused herself and did not perform any duties on the matter before the Court.
[Motion on Conflicts at Ex. G]. In response to that evidence, Appellant points only to the fact
that the law clerk received notification of public filings in the matter through the Case
Management/Electronic Case Files System. Such notice establishes no basis for a conclusion
that the law clerk did any work on this matter. Clearly, Appellant has the burden to prove
otherwise, and he has not done so.
Appellant further contends that any recusal should have occurred in writing on the record.
When a court seeks a party’s waiver of a possible conflict of interest or other potentially
disqualifying issue that creates an appearance of partiality, it must be fully disclosed on the
record. See Sierra Club v. Simkins Indus., Inc., 847 F.2d 1109, 1118 (4th Cir. 1988), abrogated

-6-

13

Case 3:19-cv-00978-M Document 15 Filed 12/02/19 Page 7 of 13 PagelD 1427
on other grounds (analyzing disclosure on the record of a judge’s potential conflict of interest).
However, when, as here, the evidence is wholly insufficient to create an appearance of
impropriety, no waiver is required and it need not be disclosed on the record. Id.
b) Judge Dodd
Appellant argues that Judge Dodd’s actions, in conjunction with the presence of the law
clerk, created an appearance of partiality that required Judge Dodd to recuse himself. He
highlights the replacement of Judge Houser with Judge Dodd without explanation, the quick
scheduling of the hearing, and an alleged imbalance in the number of times Judge Dodd
interrupted Appellant as compared to Appellees during the hearing on the appealed Motion.
[Motion on Conflicts at 15-16].
Under 28 U.S.C. § 455, a judge “shall disqualify himself in any proceeding in which his
impartiality might reasonably be questioned.” A moving party must: “(1) demonstrate that the
alleged comment, action, or circumstance was of ‘extrajudicial’ origin, (2) place the offending
event into the context of the entire trial, and (3) do so by an ‘objective’ observer’s standard.”
Andrade v. Chojnacki, 338 F.3d 448, 455 (5th Cir. 2003). “A ‘remote, contingent, or
speculative’ interest is not one ‘which reasonably brings into question a judge’s partiality.’”
Matter ofBilledeaux, 972 F.2d 104, 106 (5th Cir. 1992). Although § 455 “speaks in mandatory
language,” the Fifth Circuit has “recognized that the decision to recuse is committed to the sound
discretion” of the judge. Inre Chevron U.S.A., Inc., 121 F.3d 163, 165 (5th Cir. 1997).
The assignment of the case to Judge Dodd, the scheduling of the hearing, and Judge
Dodd’s questioning during the hearing are not of an extrajudicial origin. “[EJvents occurring or
opinions expressed in the course of judicial proceedings .... rarely require recusal.” Andrade,
338 F.3d at 455 (citing Liteky v. United States, 510 U.S. 540, 555 (1994)). Only when events or

-7-

14

Case 3:19-cv-00978-M Document 15 Filed 12/02/19

Page 8 of 13 PagelD 1428

opinions derive from or relate to an extrajudicial source or otherwise demonstrate “a deep-seated
favoritism or antagonism that would make fair judgment impossible” can they warrant recusal.
Id. Appellant presents no evidence of any of that as to Judge Dodd.
c) Appellee Schulte and V&E
Appellant alleges that Appellee Schulte and V&E violated their ethical and professional
obligations as lawyers by failing to disclose the above potential conflicts to the bankruptcy court.
As described above, however, Appellant’s allegations of potential conflicts and appearances of
partiality as to the law clerk and Judge Dodd are without merit, leaving nothing Appellee Schulte
and V&E were obligated to disclose.
Appellant also argues that Appellee Schulte and V&E violated their ethical obligations
under Texas Disciplinary Rule of Professional Conduct 1.11. That rule, however, prohibits a
former law clerk or any lawyer in the same firm as that former law clerk from representing a
party in a matter in which the law clerk previously participated in his or her official capacity as a
law clerk. Thus, the rule governs the law clerk and her current employer. It does not govern
Appellee Schulte, who was never the law clerk’s employer, nor V&E, her former employer prior
to her work as a law clerk. Accordingly, the bankruptcy court’s Order is AFFIRMED.
IX.

Appellees’ Request to Enjoin Appellant as a Vexatious Litigant
Appellees request that the Court determine that Appellant is a vexatious litigant and

enjoin him from any future filings related to the RR1 or Watch bankruptcy proceedings without
prior court approval. The All Writs Act authorizes a court to “issue all writs necessary or
appropriate in aid of their respective jurisdictions and agreeable to the usages and principles of
law.” 28 U.S.C. § 1651(a). It is not an independent grant of jurisdiction. Texas v. Real Parties
In Interest, 259 F.3d 387, 392 (5th Cir. 2001). Instead, the Court’s jurisdiction in this matter is

-8-

15

Case 3:19-cv-00978-M Document 15 Filed 12/02/19 Page 9 of 13 PagelD 1429
limited to its appellate review of the bankruptcy court. Nevertheless, a court may issue
injunctive relief under the All Writs Act in aid of its appellate jurisdiction over the bankruptcy
court. Matter ofMacon Uplands Venture, 624 F.2d 26, 28 (5th Cir. 1980). Furthermore, that
relief may relate to a court’s “existing jurisdiction or in aid of its future appellate jurisdiction.”
In re Syncora Guarantee Inc., 757 F.3d 511,515 (6th Cir. 2014) (analyzing a court of appeals’
ability to issue writs under the All Writs Act); see also F.T.C. v. Dean Foods Co., 384 U.S. 597,
603 (1966) (explaining that appellate courts have authority to issue writs with respect “to the
potential jurisdiction of the appellate court where an appeal is not then pending but may be later
perfected”). Appellees seek injunctive relief prohibiting Appellant from making future filings
related to the RR1 or Watch bankruptcies. Those filings, when decided and if appealed, will
affect the Court’s future appellate jurisdiction over those bankruptcy proceedings. Accordingly,
the Court has the jurisdiction to order the requested injunctive relief.
“[Fjederal courts possess power under the All Writs Act to issue narrowly tailored orders
enjoining repeatedly vexatious litigants.” Newby v. Enron, 302 F.3d 295, 301 (5th Cir. 2002).
This includes the authority to impose a prefiling injunction prohibiting future filings without first
obtaining leave from a court. Baum v. Blue Moon Ventures, LLC, 513 F.3d 181, 187 (5th Cir.
2008). “Notice and a hearing are required if the district court sua sponte imposes a pre-filing
injunction.” Id. at 189. However, a hearing is unnecessary in this instance given that the Court
is not acting sua sponte and is responding to Appellees’ request. Instead, the Court can issue
injunctive relief if: 1) the litigant has engaged in a lengthy and abusive history of litigation; 2)
the litigant receives notice and an opportunity to oppose the court’s order before it is imposed;
and 3) the court provides guidelines regarding how to obtain permission to make future filings.

-9-

16

Case 3:19-cv-00978-M Document 15 Filed 12/02/19 Page 10 of 13 PagelD 1430
Flores v. United States Attorney Gen., No. 1:14-CV-198, 2015 WL 1088782, at *4 (E.D. Tex.
Mar. 4, 2015) (citing Andrews v. Heaton, 483 F.3d 1070, 1077 (10th Cir. 2007)).
a) Appellant’s Vexatious Litigation History
In determining whether a litigant is vexatious, a court must weigh the following: “(1) the
party’s history of litigation, in particular whether he has filed vexatious, harassing, or duplicative
lawsuits; (2) whether the party had a good faith basis for pursuing the litigation, or simply
intended to harass; (3) the extent of the burden on the courts and other parties resulting from the
party’s filings; and (4) the adequacy of alternative sanctions.” Baum, 513 F.3d at 189. First,
Appellant has engaged in an extensive and unsuccessful history of vexatious and duplicative
litigations over the last 16 years to challenge the RRI and Watch bankruptcy proceedings.
Appellant first appealed the transactions in the Watch bankruptcy to both this court and the Fifth
Circuit Court of Appeals. In re Renaissance Radio, Inc., 2019 WL 1503787, at *2. After those
attempts were unsuccessful, Appellant refused to sign the paperwork necessary to complete those
transactions. When the bankruptcy court eventually ordered a substitute party to sign those
papers, Appellant again unsuccessfully appealed that order to this court and the Fifth Circuit
Court of Appeals. Id. Appellant also separately challenged the transactions in the Watch
bankruptcy plan to the FCC, since the license sales required FCC approval. Id. at *3. When
those multiple challenges failed, Appellant unsuccessfully appealed the FCC’s decisions to the
D.C. Circuit Court of Appeals and sought a writ of certiorari. Id. Appellant also made similar
efforts in state court, where he was sued by Zwim and brought an unsuccessful counterclaim
attempting to rescind the guaranty he provided in the RRI bankruptcy plan. Id.
Second, there is no apparent good faith basis upon which Appellant has repeatedly
challenged the proceedings concluded over a decade ago. Notably, Appellees have identified

- JO-

17

Case 3:19-cv-00978-M Document 15 Filed 12/02/19 Page 11 of 13 PagelD 1431
multiple instances of courts and the FCC finding Appellant’s various arguments repetitive and
meritless. [Response, ECF No. 9 at 4-5]. Third, Appellant’s repeated efforts have extensively
burdened multiple tribunals by both straining the courts’ dockets and directly communicating
with court staff. [Motion on Conflicts at Exs. D, G]. Finally, Appellant’s prior course of
conduct has demonstrated that alternative lesser measures will not deter his efforts. As
Appellant himself noted, he has already been “sanctioned or threatened with sanctions by Judge
Houser (ROA.919-920), this District Court (ROA.l 125) and the FCC.” [Appellant Brief, ECF
No. 8 at 41]. Exemplifying Appellant’s willingness to ignore court orders, the bankruptcy court
had to sign six orders to compel during the Watch bankruptcy proceeding to require Appellant to
sign transaction documents. In re Renaissance Radio, Inc., 2019 WL 1503787, at *2. In light of
Appellant’s consistent course of conduct, measures short of this injunction would be insufficient
to deter his future actions. Based on the above considerations, Appellant has engaged in a
vexatious and abusive pattern of litigation that warrants injunctive relief.
b) Appellant’s Notice and Opportunity to be Heard
As explained above, Appellant requires notice and a hearing before a court may sua
sponte issue a prefiling injunction. However, when acting at the request of a party, a court does
not need a hearing and can instead provide a separate opportunity to be heard. See also
Commerce Park at DFWFreeport v. Mardian Const. Co., 729 F.2d 334, 341 (5th Cir. 1984) (a
hearing is unnecessary in the related context of issuing a preliminary injunction under Federal
Rule of Civil Procedure 65(a) when there is no factual dispute and the parties have been provided
the opportunity to present their legal arguments). Appellant has been given notice of this
potential injunction through receipt of Appellees’ Response. Appellant had the opportunity to

-11 -

18

Case 3:19-cv-00978-M Document 15 Filed 12/02/19 Page 12 of 13 PagelD 1432
respond with his Reply, through which he contests Appellees’ request. [ECF No. 11].
Accordingly, Appellant has been provided notice and a sufficient opportunity to be heard.
c) Guidelines for Seeking Permission for Future Filings
A court issuing a prefiling injunction must provide guidelines as to what the enjoined
litigant must do to obtain permission to make future filings. Accordingly, Appellant may not
make any future filings in a United States bankruptcy court that relate to the Watch or RRI
bankruptcy proceedings without first obtaining the permission of the United States Bankruptcy
Court for the Northern District of Texas. When seeking such permission, Appellant shall specify
in detail the nature and justification for the requested filing, the reasons Appellant has not
previously made the requested filing, and the explanation as to how the filing is not duplicative
of any of Appellant’s previous filings. Appellant may only proceed with the requested filing
upon the granted permission of the bankruptcy court and with any limitations the bankruptcy
court may deem appropriate. Accordingly, Appellees’ request that Appellant be enjoined as a
vexatious litigant is GRANTED. It is ORDERED, that Appellant is enjoined from making
future filings related to the RRI and Watch bankruptcy proceedings, as outlined above, except
with the prior approval of the United States Bankruptcy Court for the Northern District of Texas.
X.

Conclusion
The bankruptcy court’s Order is AFFIRMED, and Appellees’ request to enjoin

Appellant as a vexatious litigant is GRANTED. Appellant is enjoined from making any future
filings related to the RRI or Watch bankruptcies in a United States bankruptcy court without first
obtaining leave from the United States Bankruptcy Court for the Northern District of Texas.

- 12-

19

V

a

Case 3:19-cv-00978-M Document 15 Filed 12/02/19

Page 13 of 13 PagelD 1433

SO ORDERED.
December 2, 2019.

/

- 13 -

y

20

Case 03-33479-bjhll Doc 287 Filed 04/11/19 Entered 04/11/19 14:38:14 Page 1 of 3
CLERK, U.S. BANKRUPTCY COURT
NORTHERN DISTRICT OF TEXAS

ENTERED
THE DATE OF ENTRY IS ON
THE COURT’S DOCKET

The following constitutes the ruling of the court and has the force and effect therein described.

p-~
United States Bankruptcy Judge

Signed April 11,2019

IN THE UNITED STATES BANKRUPTCY COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
IN RE:
RENAISSANCE RADIO, INC.,
Debtor.

§
§
§
§
§
§
§

CASE NO. 03-33479-BJH
(Chapter 11)
Related to Docket Nos. 273,274,275,
276, 278, 280,284, and 285

ORDER DENYING MOTION TO REOPEN BANKRUPTCY CASE, RECONSIDER AN
ORDER AND RECONSIDER AND DENY CERTAIN CLAIMS
Came on for consideration the Motion to Reopen Bankruptcy Case, Reconsider an Order
and Reconsider and Deny Certain Claims [Docket Nos. 273 and 274] (the “Motions”).1 the
Memorandum of Points and Authorities in Support of Motion to Reopen Bankruptcy Case;
Reconsider an Order and Reconsider and Deny Certain Claims [Docket No. 275] (the
“Memorandum in Support”), and tht Appendix to Motion to Reopen Bankruptcy Case, Reconsider

The same document was docketed at both Docket No. 273 and 274.

ORDER DENYING MOTION TO REOPEN BANKRUPTCY CASE,
RECONSIDER AN ORDER AND RECONSIDER AND DENY CERTAIN CLAIMS

PAGE - 1

21

Case 03-33479-bjhll Doc 287 Filed 04/11/19

Entered 04/11/19 14:38:14

Page 2 of 3

an Order and Reconsider Certain Claims; Memorandum of Points and Authorities; Declaration
of David Schum; Exhibits [Docket No. 276] (the “Appendix”), each filed by David A. Schum
(“Schum”). After considering Schum’s Motions, Memorandum in Support, and Appendix and
Fortress Value Recovery Fund I LLC’s Objection to David A. Schum’s Motion to Reopen
Bankruptcy Case, Reconsider an Order and Reconsider and Deny Certain Claims and Points and
Authorities in Support Thereof [Docket No. 278], Schulte Roth & Zabel LLP’s Joinder to Fortress
Value Recovery Fund ILLC’s Objection to David A. Schum’s Motion to Reopen Bankruptcy Case,
Reconsider an Order and Reconsider and Deny Certain Claims and Point and Authorities in
Support Thereof [Docket No. 280], Schum’s Reply to Fortress Value Recovery Fund I LLC and
Joinder Schulte Roth & Zabel LLP’s Objection to David A. Schum’s Motion to Reopen Bankruptcy
Case, Reconsider an Order and Reconsider and Deny Certain Claims and Points and Authorities
in Support Thereof [Docket No. 284], and arguments presented at the hearing thereon, the Court
finds that the Motions lack merit and should be denied for the reasons set forth in the Court’s
Memorandum Opinion Denying Motions to Reopen Case and to Reconsider Order and Deny
Certain Claims dated April 4, 2019 [Docket No. 285].
IT IS THEREFORE ORDERED that the Motion is DENIED.
# # # END OF ORDER ###

ORDER DENYING MOTION TO REOPEN BANKRUPTCY CASE,
RECONSIDER AN ORDER AND RECONSIDER AND DENY CERTAIN CLAIMS

PAGE - 2

22

Case 03-33479-bjhll Doc 287 Filed 04/11/19 Entered 04/11/19 14:38:14 Page 3 of 3

Submitted by:
VINSON & ELKINS LLP
2001 Ross Avenue, Suite 3900
Dallas, Texas 75201
(214) 220-7700 (Telephone)
(214) 220-7716 (Facsimile)
/s/ Matthew W. Moran
Matthew W. Moran, SBT # 24002642
Katherine Drell Grissel, SBT # 24059865
mmoran@velaw.com: kgrissel@velaw.com:
Attorneys for Fortress Value Recovery Fund ILLC

ORDER DENYING MOTION TO REOPEN BANKRUPTCY CASE,
RECONSIDER AN ORDER AND RECONSIDER AND DENY CERTAIN CLAIMS

PAGE -3

23

Case 03-33479-bjhll Doc 286 Filed 04/06/19

Entered 04/06/19 23:32:11

Page 1 of 21

A

CLERK, U.S. BANKRUPTCY COURT
NORTHERN DISTRICT OF TEXAS

ENTERED
THE DATE OF ENTRY IS ON
THE COURT’S DOCKET

The following constitutes the ruling of the court and has the force and effect therein described.

United States Bankruptcy Judge

Signed April 4, 2019

IN THE UNITED STATE
NK UPTCYCOU T
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
§ CASE NO. 03-33479-BJH
§ (Chapter 11)

IN E:
RENAIS

NCE RADIO, INC.,

§

§ Related to ECF Nos. 273 & 274
Debtor.

§ '

MEMORANDUM OPINION DENYING MOTIONS TO REOPEN
CASE AND TO RECONSIDER ORDER AND DENY CERTAIN CLAIM
David A. Schum ("Schum"), a former stockholder, moved to reopen this case (the "R I
Bankruptcy") to reconsider the allowance of several claims on grounds of fraud, bad faith and
fraud on the court. i Schum relies on 11 U.S.C. §§ 350(b), 502(j)2 and Federal Rules of Civil
Procedure 60(b)(2), (b)(3) and (d)(3).3 Both Fortress Value Recovery Fund I LLC ("Fortress

i

ECF Nos. 273 (Motion to Reopen) and 274 (Motion to Reconsider Order and Deny Certain Claims) (together, the
"Motion") were repeat filings of the same motion. Also filed with the Motion are Schum's Brief in Support, ECF No.
275 ("Schum's Brief') and Schum's Appendix, ECF No. 276 ("Schum's App.").
2 Made applicable by Fed. R. Bankr. P. 3008.
3 As applicable by Fed. R. Bankr. P. 9024.

24

Case 03-33479-bjhll Doc 286 Filed 04/06/19 Entered 04/06/19 23:32:11 Page 2 of 21

Value")4 and Schulte Roth

Zabel LLP ("Schulte")s (together with Fortress Value, the

"Objectors") oppose reopening the case.
Schum seeks to revisit claims addressed in a confirmed chapter 11 plan from a case closed
over fourteen years ago, despite his numerous unsuccessful attempts to unwind the plan through
appeals and other means. The basis for his challenge now is an argument he could have made and in at least one forum, did make - challenging post-petition financing this court approved to
successfully conclude the RRI Bankruptcy many years ago and remained undisturbed on appeal.
Even if Schum's arguments had merit as a matter of law - and they do not, being essentially
frivolous - he urges them far too late for relief.6
I.

Background
A. The RRI Bankruptcy Case
Renaissance Radio, Inc. ("RRI") was formed in February 1997 to acquire Dallas/Ft. Worth

area radio stations. Creditors of the failing enterprise filed an involuntary chapter 7 petition against
it in 2003, but the case later converted to a chapter 11 reorganization that ended with a confirmed
plan.7 The confirmed plan provided for the transfer of all RRI's assets and operations to The
Watch, Ltd., a Texas limited partnership, and its affiliate DFW Radio License, LLC, a Texas
limited liability company (together with The Watch, Ltd. ("The Watch")). The Watch bought the
assets with $6,500,000® in court-approved exit financing (the "Exit Financing Facility") arranged

4 ECF No. 278 ("Fortress Value Objection").
5 ECF No. 280 (Schulte's Joinder to the Fortress Value Objection). Schulte represented Zwim throughout the RRI
Bankruptcy.
6 This memorandum opinion addresses all objections and affirmative defenses.
7 ECF No. 141, and with certain amendments, ECF No. 148 (Second Amended Chapter 11 Plan) (the "RRI Plan");
see also ECF No. 192 (January 8, 2004 Order Confirming Second Amended Plan of Reorganization) (the "RRI
Confirmation Order").
8 RRI Plan, Ex. B.

emorandum Opin on

25

Case 03-33479-bjhll Doc 286 Filed 04/06/19 Entered 04/06/19 23:32:11

Page 3 of 21

by Bernard National Loan Investors Ltd. ("BNLI")9 as lender and Highbridge/Zwim Special
Opportunities Fund, L.P. ("Zwirn"), its agent. A final decree closed the RRI Bankruptcy in August
2004, more than fourteen years before Schum filed the Motion. Schum personally guarantied (the
"Guaranty")10 the Exit Financing Facility, as RRI's confirmed plan required.11
B. The Watch Bankruptcy
Less than two years after RRI's plan was confirmed, The Watch and DFW Radio License,
LLC filed their own chapter 11 cases.12

The court later authorized Zwim's purchase of

substantially all the two debtors' assets,13 though Zwim later assigned its purchase rights to
Bernard Dallas, LLC ("Bernard Dallas"), an entity it formed to acquire the assets.
Schum repeatedly challenged this transaction through the courts. His actions included:
1/9/06: Schum appealed the sale approval order to the Northern District of
Texas, District Court.14 The appeal was dismissed for Schum's lack of
standing.
7/12/06: Schum unsuccessfully moved for reconsideration, arguing that his
proofs of claim filed in the bankruptcy cases gave him standing to appeal.15

9 The financing agreement defined the Lenders as "the financial institutions from time to time" but was signed on
behalf of Bernard National Loan Investors, Ltd. The closing documents bear the signatures of Schum, as president of
DFW Radio, Inc. and general partner on behalf of The Watch; Daniel Zwim, as managing principal of Zwim; and
Perry Guss, as director of BNLI. Schum's App. at 120-21 (financing agreement signature pages).
10 Adversary No. 06-02345-BJH [ECFNo. 2], Ex. D; see also RRI Plan, Ex. 1.31, p. 13.
11 RRI Plan. Ex. 1.31, § 5.1(A)(i).
12 Case Nos. 05-35874-BJH-l 1 (The Watch, Ltd.) and 05-35892-BJH-l 1 (DFW Radio License LLC) (collectively,
"The Watch Bankruptcy") were filed May 26, 2005, and later ordered jointly administered. Citations to pleadings
filed in these cases will be preceded with "The Watch Bankruptcy." All other citations will refer to pleadings filed in
the RRI Bankruptcy unless otherwise noted.
13 The Watch Bankruptcy, ECF No. 150.
14 See Case No. 3:06-cv-00391-N.
15 See Case No. 3:06-cv-00391-N, [ECF Nos. 21 and 26],

emorandum Opin on

26

Case 03-33479-bjhll Doc 286 Filed 04/06/19

Entered 04/06/19 23:32:11

Page 4 of 21

12/5/05: Schum appealed the dismissal order to the F fth Circu t Court of
Appeals, which dismissed the appeal as moot after Schum failed to obtain
a stay pending appeal.16
When Schum did not succeed on appeal, he sought to stop the court-approved transactions
by repeatedly refusing to sign documents necessary to close Zwim's purchase. Interested parties
filed six (6) motions to compel Schum to sign the documents transferring the FCC licenses and
permits from the debtors to the purchaser.17 The sixth and final order authorized Zwim's counsel
to sign the sale documents (the "Sixth Compel Order").18 Schum appealed that order but this
court denied his motion to stay the order pending appeal. The district court later dismissed the
appeal as moot under 11 U.S.C. § 363(m) because there was no stay of the sale approval order and
the sale at issue had already been consummated to a good-faith purchaser.19 Schum unsuccessfully
moved the district court to reconsider the order dismissing the appeal.20 The Fifth Circuit
eventually dismissed as moot Schum's appeal of the order denying his motion to reconsider.21
Nor did Schum confine his relentless efforts to block the transactions to the federal courts.
Specifically, he unsuccessfully attacked the Federal Communications Commission's (the "FCC")
approval of Bernard Dallas's May 2006 sale of the radio assets to a third-party purchaser, Principal
Broadcasting,22 and afterward petitioned the FCC to reconsider its approval of the assignment.

16 See First Appeal [ECF No. 27] (Notice of Appeal), and In Matter of The Watch Ltd., 257 F. App'x 748 (5th Cir.
2007).
17 See The Watch Bankruptcy, [ECF Nos. 172 & 178; 191 & 193; 204 & 205; 208 & 214; 220 & 221; 232 & 238],
18 Id. at ECF No. 238.
19 The Watch Bankruptcy [ECF No. 259]; case no. 3:07-CV-0563-N, ECF No. 12 (District Court Order Dismissing
Appeal as Moot); and Schum, et al v. Zwim Special Fund, et al, case no. 08-10121 (Judgment entered 10/6/08
Dismissing Appeal as Moot).
20 Case no. 3:07-CV-0563, [ECF No. 13] (Schum's Motion for Reconsideration); [ECF No. 17] (Order Denying
Motion for Reconsideration).
21 See Schum, etalv. Zwim Special Fund, etal, case no. 08-10121; case no. 3:07-CV-0563, [ECF No. 18] (Notice of
Appeal); and In re Watch Ltd., 295 F. App'x 647, 650 (5th Cir. 2008).
22 FCC Decision DA 06-2607.

emorandum Opin on

27

Case 03-33479-bjhll Doc 286 Filed 04/06/19 Entered 04/06/19 23:32:11

Page 5 of 21

Failing there as well, Schum sought review of the FCC letter decisions declining to reconsider the
objections to the license assignments from DFW Radio License to Bernard Dallas, and from
Bernard Dallas to Principle Broadcasting. Schum contended that the transaction was unlawful
because the lenders had foreign ownership - the very same argument he now brings to this court.
The FCC again rejected Schum’s arguments.23
Schum then appealed the FCC's decision to the United States Court of Appeals for the
District of Columbia Circuit.24 When that failed, Schum unsuccessfully applied to the United
States Supreme Court for a writ of certiorari,25 then was denied a rehearing.26
At some point Zwim sued Schum in state court to collect on the Guaranty27 and another
obligation. Schum counterclaimed, seeking to rescind the Guaranty based on "fraud" or "mutual
mistake." The counterclaim was removed to this court28 but was later remanded to state court.
This court found that the Guaranty was integral to the RRI Plan and Schum's counterclaim
impermissibly collaterally attacked its confirmation order.29
Schum has not shown cause to reopen the RRI Bankruptcy. Every challenge he now brings
to this court was made years ago in other forums. His claims here are premised on the same facts
he has possessed for years and the same theories federal courts and one federal agency already
have considered and rejected.

23 See DFW Radio License, LLC, 29 F.C.C. Red. at 810-11.
24 See In re: David Schum 13-1041; David Schum v. FCC 14-1026; David Schum v. FCC 14-1027; and David Schum
v. FCC 16-1376.
25 Schum v. F.C.C., 136 S. Ct. 1672,194 L. Ed. 2d 781 (2016).
26 Schum v. F.C.C., 136 S. Ct. 2481,195 L. Ed. 2d 815 (2016).
27 The lawsuit was styled D. B. Zwirn Special Opportunities Fund, L.P. v. David Schum, Cause No. 05-05619 in the
116th District Court of Dallas County (the "State Court Action").
28 The removed lawsuit was designated adversary no. 06-3277.
29 Hr’g Tr. 11/2/06, Adversary No. 06-03456-BJH [ECF No. 28] at pp. 10-11 (Houser).

Memorandum Opinion

5

28

Case 03-33479-bjhll Doc 286 Filed 04/06/19 Entered 04/06/19 23:32:11

Page 6 of 21

This memorandum opinion gives the reasons for denying Schum's Motion.
II.

Jurisdiction and Venue
The court has jurisdiction under 28 U.S.C. § 1334(b), This is a core proceeding under 28

U-S.C. § 157(b)(2)(A), (B), (K), (L), (E) and (0).
III.

Legal Analysis
A.

No Basis Exists for Reopening the RRI Case Pursuant to Federal Rule of
Bankruptcy Procedure 9024 and Federal Rule Of Civil Procedure 60

Federal Rule of Bankruptcy Procedure 9024 makes Fed. R. Civ. P, 60 applicable in
bankruptcy cases:. The rule permits reconsideration of a final judgment or order based on. (i) newly
discovered evidence that, with reasonable diligence, COuld not have been discovered in time to
move for a new trial, under Rule 59(b), or (ii) fraud (whether previously called intrinsic or
extrinsic), misrepresentation, Or misconduct by an Opposing party. Fed. R. Civ. P. 60(b)(2), (3).
Rule 60(c) limits the period to seek relief under (b) to "no more than a year after the entry of the
judgment or order or the date of the proceeding." Fed. R. Civ. P. 60(c).
1. Schum’s Claims Are Time-Barred
Schum argues that reopening the case is appropriate under Rule 60(b)(2) based on "newly
discovered evidence" relating to BNLI, an offshore entity whose domicile was not disclosed when
it provided the Exit Financing Facility. He contends this was a material misrepresentation that
amounts to fraud within the meaning of Rule 60(b)(3), and that BNLi's role in the financing
violated 47 U.S.C. § 310, which bars foreign ownership of broadcast licenses.30 Schum also claims
that he was the sole representative of debtor RRI with the authority to approve the exit financing
arrangement but that he was "purposely and fraudulently never provided with the requisite

30 See generally Schum’s Brief, ECF No. 275.

Memorandum Opinion

6

29

Case 03-33479-bjhll Doc 286 Filed 04/06/19 Entered 04/06/19 23:32:11 Page 7 of 21

information to make an informed decision."31 Schum contends that he never would have agreed
to allow Bernard Dallas to provide financing to conclude the RRI Bankruptcy had he known it was
a foreign entity.
Schum admits he discovered this evidence in 2012 but claims to have waited to bring it to
this based on advice he received from unnamed lawyers at a deposition32 in the State Court Action.
Schum filed the Motion almost fifteen years after the chapter 11 case was closed and more
importantly, nearly seven years after he discovered the allegedly new facts. Even giving credence
to his claim of reliance on other lawyers in a separate legal proceeding, Schum cannot justify his
inaction. Schum's delay in filing the Motion leaves him without a remedy under Rule 60(b)(2) and
(3).

Even assuming, without finding, that Schum had been deceived and the Motion was timely
filed, Rule 60(b) would give him no recourse. Contracting parties are generally not fiduciaries
under Texas law and each party to a transaction must exercise due diligence and make its own
inquiry of counterparties to a contract to protect its own interests.33 Schum could have inquired
into the entities' origin at any time before signing the exit financing loan documents: indeed, he
should have done so because he personally guarantied the undertaking. Nothing in the record
suggests that Schum lacked the time or resources to review the loan documents before allowing
RRI to agree to the exit financing transaction. The record rather reflects that he was represented

31 Id. at U 46.
32 See Schum's Brief, at 39 (Schum claims that "[t]he attorneys that participated in the bankruptcy proceeding
advised Schum to finish with the FCC process prior to bringing this motion before the bankruptcy Court. Schum did
just that, a process that took from February 23, 2006 until May 29, 2018..."). See also Schum App., Ex. E (excerpt
from 12/21/12 deposition).
33 See Schlumberger Tech. Corp. v. Swanson, 959 S.W.2d 171, 177 (Tex. 1997) (requiring more than a contractual
agreement—the relationship must exist prior to, and apart from, the agreement made the basis of the suit); Barfield v.
Howard M. Smith Co. ofAmarillo, 426 S.W.2d 834,840 (Tex. 1968) ("As a party to arm's length business transactions,
respondent had a duty to use ordinary care for the protection of its own interests.").

Memorandum Opinion

7

30

Case 03-33479-bjhll Doc 286 Filed 04/06/19

Entered 04/06/19 23:32:11

Page 8 of 21

by counsel and did not face pressures unusual or uncommon in a typical chapter 11 case. Nothing
Schum has offered supports the conclusion that either Zwim or Bernard Dallas prevented. Schum
from learning any relevant information about the entities.
Schum's allegations of coercion to sign the documents on the day of the closing are
unwarranted and do not merit relief under Rule 60(b)(2) or (3),
2. Nothing in the Record Supports a Finding that any Party Engaged
in Fraud on the Court Warranting Relief Under Rule 60(d)
To avoid the one-year limitation for relief under Rule 60(b), Schum also argues for
reconsideration pursuant to Rule 60(d)(3), to "set aside the judgment for fraud on the court." In
contrast to a claim for relief under Rule 60(b)(3), Rule 60(d)(3) allows courts to "set aside a
judgment for fraud on the court" without a strict time limitation.34 Because the rule does not bar
challenges to orders and judgments based on timeliness of the request, its standard for proving that
an order should be set aside for "fraud on the court" is much more demanding:35 "[0]nly the most
egregious misconduct, such as bribery of a judge or members of a jury, or the fabrication of
evidence by a party in which an attorney is implicated, will constitute fraud on the court, ..36 Claims
for relief on this .ground must be supported by clear and convincing evidence.37 Schum’s
purportedly new evidence does not satisfy Rule 60(d)(3).
Schum argues that the orders allowing and providing for payment of the claims of the
Objectors should be set aside pursuant to Rule 60(d)(3). He alleges that BNLl defrauded both him
34 See Fed. R. Civ. P, 60(c)(1); see also Jackson v. Thaler, 348 F. App'x. 29, 34 (5th Cir.2009) (per curiam),
35 Dailey v. United States, 2010 WL 4683824, at *2 (E.D. Tex. Nov. 10, 2010).
36 Jackson, 348 F. App'x. at 34 (quoting Rozier v. Ford Motor Co., 573 F.2d 1332, 1338 (5th Cir.), reh'g denied, 578
F.2d 871 (5th Cir. 1978)).
37 Wooderts v. Warden, Fed, Corr. Inst. Seagoville, 516 F. App'x 370, 371 (5th Cir. 2013) (clear arid convincing
evidence); (sea also Galatolo v. United States, 394 F. App'x 670,672 (11th Cir. 2010) ("Conclusory averments of the
existence of fraud made on information and belief and unaccompanied by a statement of clear and convincing
probative facts which support such belief do not serve to raise the issue of the existence of fraud.").

Memorandum Opinion

8

31

Case 03-33479-bjhll Doc 286 Filed 04/06/19

Entered 04/06/19 23:32:11

Page 9 of 21

and the court because it (i) fraudulently concealed that it was an offshore entity that 47 U.S.C. §
310(b) barred from participating in the exit financing transaction and subsequent sale; and (ii)
fraudulently induced Schum into signing the loan documents on RRTs behalf. Schum explained
at the hearing on his Motion that he never would have agreed to the loan had he known that Bernard
was not a domestic entity.38
First, the record Schum made does not demonstrate any egregious misconduct, an
unconscionable plan or scheme to improperly influence the court, or an attempt to mislead it. This
court approved the financing and confirmed the RRI Plan based on the FCC's approval of the
transfer of licenses to The Watch. Schum's claim that Zwim "decided to go the fraud route" and
used an "illegal lender" - urged before in several forums and again to the FCC - is conclusory; no
facts support it.39 "Fraud on the court ... is fraud which is directed to the judicial machinery itself
and is not fraud between the parties or fraudulent documents, false statements or peijury."40 This
court specifically found that the "FCC has approved the transfer of the licenses and construction
permits, as applicable, by the Debtor to The Watch, Ltd., per the requirements of the Plan. "41 The
FCC approved the assignments and transfers of the licenses as the confirmed RRI Plan and Exit
Financing Facility contemplated; it found no basis for revisiting its decision.42 No evidence

38 Hr’g Audio Tr. 2/20/19 at 2:54:08. In any event the court does not concede that BNLI was or is an "offshore entity"
for any purpose under applicable law.
39 Id. at H 45.
40 See Breitling v. LNVCorp., 2015 WL 5896131, at *7 (N.D. Tex. Oct. 5, 2015).
41 Findings of Fact and Conclusions of Law Regarding Confirmation of Second Amended Plan of Reorganization
[ECF No. 185] at 13. See also Confirmation Order at p. 2 (("ORDERED that since the FCC approved the transfer
of the applicable construction permits to The WATCH, Ltd., as provided for in the Plan ...") (emphasis added).
42 Hr’g Audio Tr. 2/20/19 at 2:51:15-32 (Schum) (Schum acknowledging that he pursued a complaint challenging the
role of the non-American lender (BNLI) through the FCC, but "there was nothing that they [the FCC] would do about
it").

Memorandum Opinion

9

32

Case 03-33479-bjhll Doc 286 Filed 04/06/19

Entered 04/06/19 23:32:11

Page 10 of 21

supports a finding that the FCC’s approval, which was essential to the two challenged transactions,
was erroneous or based on fraud.
Fortress Value correctly points out that the statute addresses only the nationality of the
entity that held the FCC licenses (DFW Radio License) and not the lender (BNLI). Schum points
to no law or jurisprudence suggesting otherwise. Because DFW Radio License was a Texas
corporation,43 47 U.S.C, §310(b) was inapplicable.
This court specifically found that each of the necessary pre-conditions required for the Exit
Financing Facility were met, including FCC approval to transfer the licenses and construction
permits pursuant to the plan.44
In sum, Schum's contentions even if proven do not rise to the level Of "fraud on the court"
under Rule 60(d)(3).
3. Schum's Other Grounds to Revisit Prior Rulings Have no Basis in
Law.
Schum seeks relief this court cannot grant because it cannot review the FCC's decisions
relating to transfer of the licenses.45

"Congress assigned to the Federal Communications

Commission ... exclusive authority to grant licenses"46 under the Federal Communications Act,
and required the FCC "to serve as the single Government agency with unified jurisdiction and
regulatory power over all forms of electrical communication, whether by telephone, telegraph,

43 HR) Plan, at p. 2; see also [ECF No. 149] (RRI Disclosure Statement) at p. 2.
44 Id. at Article IV, § 4.01(h) (requiring consents, authorizations and approvals of any governmental authority); Article
V, § 5.01(c)(iv) (requiring prior FCC approval for consummation of any assignments or transfers of control of FCC
authorizations).
45 In re F.C.C., 217 F.3d 125, .135 (2d Cir. 2000) (concluding the bankruptcy court lacked authority to review the
FCC decision and stating, "whenever an FCC decision implicates its exclusive power to dictate the terms and
conditions of licensure, the decision is regulatory. And if the decision is regulatory, it may not be altered or impeded
by any court lacking jurisdiction to review it.").
48 Metro Broadcasting, Inc. v. FCC, 497 U,S. 547, 553, 1)0 S.Ct. 2997, 111 L.Ed.2d,445 (1990), Overruledon other
grounds, Adarand Constructors, Inc. v. Pena, 515 U.S, 200,11.5 S.Ct. 2097,132 L.Ed.2d 158 (1995).

Memorandum Opinion

10

33

Case 03-33479-bjhll Doc 286 Filed 04/06/19

Entered 04/06/19 23:32:11

Page 11 of 21

cable, or radio."47 Schum's challenge to its decision failed both at the agency and on appeal. The
FCC had sole authority to approve the transfer of the licenses and Schum offers no basis in law or
in fact for reconsidering its approval, even if this court had jurisdiction to do so.
Principals of claim and issue preclusion also bar reopening the case. Whereas "claim
preclusion" prevents the relitigation of a claim or cause of action that has been finally adjudicated,
as well as related matters that, with the use of diligence, could have been litigated in the prior
action,48 issue preclusion prevents relitigation of specific issues already resolved in a prior
action.49 The test for issue preclusion requires proof of four elements:
(1) the issue under consideration in a subsequent action must be identical to the
issue litigated in a prior action; (2) the issue must have been fully and vigorously
litigated in the prior action; (3) the issue must have been necessary to support the
judgment in the prior case; and (4) there must be no special circumstance that would
render preclusion inappropriate or unfair.50
Fundamentally, Schum is attempting to collaterally attack prior orders and raises issues
actually litigated years ago. He repeats arguments he made in past actions and appeals that were
fully litigated in this court, the district court, the state court and the FCC. For example, Schum's
petition to the FCC sought to deny Zwim's application for assignment of the licenses premised on
identical allegations currently before the court, including arguments that BNLI failed to disclose
information about Zwim's ownership structure allegedly violating 47 U.S.C. § 310 (a-b).51 The
FCC rejected this argument as speculative, approved the assignment of licenses to Zwim,52 and
47 United States v. Sw. Cable Co., 392 U.S. 157, 168, 88 S. Ct. 1994, 2000, 20 L. Ed. 2d 1001 (1968; (internal
quotation marks and footnotes omitted).
48

Barr v. Resolution Trust Corp., 837 S.W.2d 627, 628 (Tex. 1992).

49 Id.
50 United States v. Shanbaum, 10 F.3d 305, 311 (5th Cir. 1994).
51 See The Watch Bankruptcy, ECF 216 at Ex. C (FCC's December 28,2006 decision denying Schum's petition and
approving the assignment of licenses to Zwim).
52 Id.

emorandum Opin on

34

Case 03-33479-bjhll Doc 286 Filed 04/06/19

Entered 04/06/19 23:32:11

Page 12 of 21

later denied Schum's second petition.53 Similarly, Schum sought to rescind the Guaranty as the
result of "fraud" or "mutual mistake" in the State Court Action. His counterclaims were removed
to this court but remanded to state court, which resulted in dismissal of Schum's claims and final
judgment in favor of Zwim.54 Each of Schum's appeals and challenges repeated the same
arguments that were already denied or dismissed on a final basis.
B.

There Were No Ethical Violations

Schum asserts Schulte attorneys violated Texas Disciplinary Rules of Professional Conduct
Rules 3.03 or 8.04,55 which prohibit false statements to tribunals and lawyers' dishonest conduct.
However, no evidence supports Schum's conclusory allegations of misconduct by opposing
counsel. Regardless, BNLI's domicile was immaterial to the financing transaction and did not
necessitate disclosure contemplated by the rules.
C.

There Is No " Cause" Under § 350(b) or §502(j) to Reopen the RRI Bankruptcy

Schum argues for reopening of this case56 for several purposes, among them reconsidering
and denying Zwim, BNLI and Shultz's allowed claims and undoing plan payments in connection
with the Exit Financing Facility.57 Schum has not established a basis for reopening this longclosed reorganization.

53 Id. at Ex. D (Schum's Second Petition to the FCC).
54 See The Watch Bankruptcy [ECF No. 276] Ex. B (findings of fact and conclusions of law entered in the State Court
Action, finding, among other things, (1) Schum owed Zwim $10,754,451.45 under the exit financing agreement and
(2) Schum had "no valid defense, offset, claim, or counterclaim that [would] reduce the amounts" owed.).
55 See Schum's Brief, 1j 53 (arguing counsel violated Rule 3.03(5) [sic], 3.03(b), (c) and Rule 8.04).
56 See e.g., Motion at 3 of 8.
57 Id.

Memorandum Opinion

12

35

Case 03-33479-bjhll Doc 286 Filed 04/06/19

Entered 04/06/19 23:32:11

Page 13 of 21

1. Schum Failed to Establish Cause Pursuant to § 350(b)
Sebum contends that 11 U.S.C. § 350(b) gives this court discretion to reopen his case "to
accord relief to the debtor, or for other cause"58 without regard to time elapsed since a case was
closed. See also Fed. R. Bankr. P. 5010. He contends that once the case is reopened, 11U.S.C. §
502(j) permits reconsidering a claim that has been allowed or disallowed "for cause" - once again,
subject to no time limit. See also Fed. R. Bankr. P. 3008.
Bankruptcy Code section 350(b) allows reopening of closed cases to administer assets, to
provide relief to the debtor, "or for other cause." 11 U.S.C. § 350(b); Fed. R, Bankr. P. 5010,
Schum has the burden of establishing cause to reopen the case.59
"In this context, the phrase 'other cause' gives the bankruptcy court 'discretion to reopen a
closed estate or proceeding when cause for such reopening has been shown,"' In re Beil Family
Trust, 575 F. App'x 229, 232 (5th Cir. 2014) (quoting In re Case, 937 F.2d 1014, 1018 (5th Cir.
1991)). "This discretion depends upon the circumstances of the individual case and accords with
the equitable nature of all bankruptcy court proceedings." Id. Courts have developed a non­
exclusive list of factors to consider in determining whether cause exists to reopen a case but a
principal factor is the length of time between the estate's closing and the motion to reopen,The
longer the time between closing of a bankruptcy case and a request to reopen it, the greater the

38 Motion at H 33.
39 In.reDudley, 230 B.R. 96, 98 (Bankr. N.D. Tex. 1999).
,«p

Reid v. Richardson, 304 F,2d 351, 355 (4th Cir. 1962) (the time for reopening an estate should be of "Crucial
significance" to the bankruptcy court,).

Memorandum Opinion

13

36

Case 03-33479-bjhll Doc 286 Filed 04/06/19

Entered 04/06/19 23:32:11

Page 14 of 21

showing to establish cause for reopening.61 Even then, courts will reopen a closed case only on a
demonstration of compelling circumstances.62
Assuming, without finding, that Schum was a party in interest, he failed to establish cause
to reopen the RRI Bankruptcy as 11 U.S.C. § 350(b) requires and so is not entitled to relief. Schum
explains that he delayed filing the Motion on advice of opposing counsel who suggested that he
wait until he had concluded litigation challenging the FCC’s approval of the license transfers.63
.Even suspending disbelief in the plausibility of that claim and setting aside the wisdom of relying
on opposing counsel for legal advice, Schum's delay in moving to reopen the RRI Bankruptcy is
inexcusable. Schum with reasonable diligence could have discovered and brought to the court
long before 2018 all the facts supporting his spurious claim that BNLI's domicile prevented it from
participating in the exit financing transaction. Schum asks for relief now, fourteen years after the
RRI Plan was consummated and all parties' claims were paid to the extent the plan provided, and
six years after he admits learning the facts on which he premises his request. His allegations are
as implausible as the reliefhe seeks is impractical. Schum has not proven cause to reopen the case.
2. There Is No Cause Pursuant to 11 U.S. C. § S02(j) to Reconsider the
Claims
Nor has Schum made out a case for revisiting the allowance and payment of the claims of
Zwim/Fortress Value, BNLI and Schulte for pre-paid fees and legal fees in connection with the
Exit Financing Facility.

61 Traub v. Marshall Field & Co., 182 F. 622,624-25 (5th Cir. 1910); In re Double J Operating Co., Inc., 37 F. App'x
91, *1 n.4 (5th Cir. 2002) (citing Batstone v. Emmerling {In re Emmerling), 223 B.R. 860, 864-69 (B.A.P. 2d Cir.
1997)).
62 In re Johnson, 2018 WL 4955235, at *2 (S.D. Tex. Oct. 11, 2018) (citing Reidy. Richardson, 304 F.2d 351, 355
(4th Cir. 1962)).
63 See Schum’s Brief, f 39; Schum's App., Ex. E.

Memorandum Opinion

14

37

Case 03-33479-bjhll Doc 286 Filed 04/06/19

Entered 04/06/19 23:32:11

Page 15 of 21

Bankruptcy Code section 502(j) provides that "[a] claim that has been allowed or
disallowed may be reconsidered for cause. i?64 Bankruptcy Rule 3008 implements this Code
section, providing that a "party in interest may move for reconsideration of an order allowing or
disallowing a claim against the estate."65 If the "Rule 3008 motion is brought after the expiration
of the 10 day period in Rules 9023 and 8002(a), Rule 9024 (applying Rule 60 of the Federal Rules
of Civil Procedure) will guide the 'for cause' standard, it 66 If the court finds there is a basis to
reconsider under Rule 60, then section 502(j) and Rule 3008 allow "great discretion in
reconsidering the allowance or disallowance of claims"67 but should not encourage parties to avoid
the usual rules for finality of contested matters. 68
Factors militating against reopening the RRI Bankruptcy pursuant to Rule 60 also support
denying reconsideration of the allowance and payment of Schulte's and Zwim's claims. Schum
failed to establish any basis for reconsidering claims allowed and paid through a plan confirmed
almost fifteen years ago; or to persuasively explain the delay of more than six years in presenting
his claim of alleged fraud on this court. As set forth in § III.A.l, supra, in addition to Schum's
inability to justify cogently his proposal to disturb the finality of the claims determination process,
it is clear that Schum is not entitled to relief under 11 U.S.C. § 502(j).69

64 11 U.S.C. §502(j).
65 Fed. R. Bankr. P. 3008
66 In re Pride Companies, L.P., 285 B.R. 366, 369 (Bankr. N.D. Tex. 2002).
67 Id.
68

Matter of Colley, 814 F.2d 1008,1010 (5th Cir. 1987).

69 See also In re Wilkinson, 457 B.R. 530,540 (Bankr. W.D. Tex. 2011) ("The court reads section 502(j) and its 'cause'
standard to require a movant to first establish some reason for disturbing the finality of the claims determination
process...") (internal citations omitted).

Memorandum Opinion

15

38

Case 03-33479-bjhll Doc 286 Filed 04/06/19 Entered 04/06/19 23:32:11 Page 16 of 21

D.

The Motion s Equitably Moot

In further alternative, the doctrine of equitable mootness supports denial of Schum's
Motion.
Courts may decline appellate review of a chapter 11 plan when a reorganization has
progressed too far for the requested relief to be granted practicably.70 Equitable mootness also
applies to a bankruptcy court's consideration of a motion to revoke a plan confirmation order.71
The Fifth Circuit will consider three factors to decide whether a motion is equitably moot: "(i)
whether a stay has been obtained, (ii) whether the plan has been 'substantially consummated,' and
(iii) whether the relief requested would affect either the rights of parties not before the court or the
success of the plan."72 Of these, the third factor represents the ultimate inquiry.73 All three of the
elements of equitable mootness are satisfied here.
Schum has not obtained a stay of the RRI Plan, which has been completely consummated
and the case closed. Nothing remains to be done to carry out the terms of the confirmed plan.74
Finally, an order confirming a chapter 11 plan cannot be partially revoked. The RRI Plan and RRI
Confirmation Order set February 12,2004 as the final date to object to claims75 and also provided

70 In re Blast Energy Servs., Inc., 593 F.3d 418,424 (5th Cir. 2010).
71 In re CTLI, LLC, 534 B.R. 895,909 (Bankr. S.D. Tex. 2015) (denying a motion to revoke a plan confirmation order
under section 1144 as equitably moot); In re Delta Air Lines, Inc., 386 B.R. 518, 537 (Bankr. S.D.N.Y. 2008)
(equitable mootness applies to proceedings under section 1144); The Nancy Sue Davis Tr. v. Davis Petroleum Corp.,
402 B.R. 203, 208 (S.D. Tex. 2009) (dismissing an appeal as equitably moot that sought to revoke a confirmation
order on ground that it had been procured by fraud).
72 Id. (citing In re Manges, 29 F.3d 1034,1039 (5th Cir. 1994)).
73 The Nancy Sue Davis Trust v. Davis Petroleum Corp., 402 B.R. 203 (S.D. Tex. 2009).
74 Blast Energy Servs., 593 F.3d at 425 (substantial consummation occurs when the debtor "ha[s] either paid or
arranged for payment of all of its creditors.").
75 RRI Plan, 1.19,1.28 (defining Claim Objection Bar Date as the 20th day after the Effective Date; and defining
Effective Date as the "next business day after the tenth day following the Confirmation Date." The Confirmation Date
was January 12, 2004.

emorandum Opin on

6

39

Case 03-33479-bjhll Doc 286 Filed 04/06/19

Entered 04/06/19 23:32:11

Page 17 of 21

for RRI's payment of attorney fees and other charges in onnection with the Exit Financing
Facility.76 They bar Schum's untimely challenge to the Objectors' claims.
E.

The RRI Confirmation Order Cannot Be Revoked Pursuant to § 1144

Schum insists that he is not trying to revoke the RRI Confirmation Order but instead only
seeks to reopen the case to challenge the interest, loan, and attorneys’ fees paid in connection with
the Exit Financing Facility. But stripped of artifice his Motion is plainly an attack on the order
confirming the RRI plan, which deemed the contested orders allowed, rather than a challenge to
claims allowance orders. Schum's challenge is long since barred by 11 U.S.C. § 1144.
Bankruptcy Code section 1144 establishes a 180-day deadline after the date of entry to
move to revoke an order confirming a chapter 11 plan, and then only if the order confirming the
plan was procured by fraud.77 Congress was familiar with the chain of events that take place after
a chapter 11 plan is confirmed and so provided that "only fraud would warrant an attempt to
'unscramble the egg,' and even then only within the 180-day time frame imposed by § 1144. »78
Schum's artful attempt in the Motion and at argument to circumvent § 1144's time limit is "a futile
effort to put the non-existent scrambled egg back in the shell. ii 79
Schum did not object to confirmation in the RRI Bankruptcy nor did he cause RRI to object
to Schulte's or Zwim's claims before the claim objection bar date.80 As a result, their claims were

76 See RRI Plan [ECF No. 148] Ex. 1.31, § 11.04; RRI Confirmation Order [ECF No. 192] (collectively providing for
RRI's payment of attorneys' fees, costs and legal expenses incurred by Zwim).
77 11 U.S.C. §1144.
78 In re Logan Place Properties, Ltd., 327 B.R. 811, 812 (Bankr. S.D. Tex. 2005) (quoting In re Winom Tool and Die,
Inc., 173 B.R. 613, 616 (Bankr. E.D. Mich. 1994)).
79 In re Canal St. Ltd. P'ship, 269 B.R. 375, 381 (B.A.P. 8th Cir. 2001) (referring to a substantially consummated
chapter 11 plan).
80
See RRI Plan [ECF No. 148]; Confirmation Order [ECF No. 192] (requiring all claim objections to be filed on or
before February 12,2004).

emorand m Opin on

7

40

Case 03-33479-bjhll Doc 286 Filed 04/06/19

Entered 04/06/19 23:32:11

Page 18 of 21

deemed allowed and provided for in the confirmed plan. Schum cannot now pursue his claim
objections without unwinding the confirmed plan and nullifying the "binding contract" among the
parties to the reorganization.81
F.

This Court Lacks Authority to Appoint Special Masters.

Finally, Schum suggests the court appoint a special master to determine whether there has
been fraud upon the court.82 Pretermitting the propriety of a court's delegating that issue, Federal
Rule of Bankruptcy Procedure 9031 makes inapplicable in bankruptcy cases Federal Rule of Civil
Procedure 53, which governs the appointment and duties of special masters.83 This court has no
power to appoint a special master. 84
IV.

Conclusion
RRI's confirmed plan bound all parties whose claims and interests it addressed, including

Schum. The RRI Bankruptcy and its successor's bankruptcy were fully consummated and closed
years ago. Even if Schum's claims had merit - which they lack - Schum inexcusably tarried in
pursuing relief after 2012, when he claims to have first obtained information supporting the theory
underlying his latest attack on the RRI reorganization.
Because Schum has established no basis for reopening the RRI Bankruptcy or reconsider
the Objectors' claims, his Motion will be denied.

81 Christopher v. Am. Universal Ins. Group (In re Christopher), 148 B.R. 832, 837 (Bankr. N.D. Tex. 1992) ("A
strong policy favors enforcement of the plan of reorganization because too many rights of too many interests have
relied on the finality of the confirmation order.... Once the plan is confirmed, the property rights of many of these
interests are adjusted thereby creating a new status which is important to preserve."), affd, 28 F.3d 512 (5th Cir. 1994);
Oneida Motor Freight, Inc. v. United Jersey Bank (In re Oneida Motor Freight, Inc.), 848 F.2d414,417 (3d Cir. 1988)
("A strong interest to achieve finality pervades Chapter 11 arrangements.") (citation omitted), cert, denied, 488 U.S.
967,109 S.Ct. 495, 102 L.Ed.2d 532 (1988).
82 Schum's Brief in Support, ^ 60.
83 See Fed. R. Bankr. P. 9031 ("Rule 53 F.R.Civ. P. does not apply in cases under the Code.").
84

The Bankruptcy Code also prohibits appointing receivers in bankruptcy cases. 11 U.S.C. § 105(b).

emorandum Opin on

8

41

Case 03-33479-bjhll Doc 286 Filed 04/06/19

Entered 04/06/19 23:32:11

Page 19 of 21

Counsel for Fortress Value is directed to prepare a form of order and upload it within 14
days of entry of this Memorandum Opinion.
# # # END OF MEMORANDUM OPINION # # #

emorandum Opin on

9

42

it

Case 03-33479-bjhll Doc 286 Filed 04/06/19

Entered 04/06/19 23:32:11

United St te
nk ptcy Co
Northern Di trict of Texas
In e:
Renais

t
Ca e No. 03-334 9-bjh
Chapter 11

nee Radio, Inc.
Debtor

District/off: 0539-3

Page 20 of 21

CERTIFICATE OF NOTICE
User: mmathews
Form ID: pdf012

Page 1 of 2
Total Noticed: 1

Date Rcvd: Apr 04, 2019

nkr ptcy Noticing Center on
Notice by first class mail was sent to the following persons/entities by the
Apr 06, 2019.
Dallas, TX 75225-6952
+David A. Schum,
4149 Lovers Lane, Apt. C,
intp
Notice by electronic transmission was sent to the following persons/entities by the Bankruptcy Noticing Center.
TOTAL: 0
NONE.
★★★+★

BYPASSED RECIPIENTS

**★*★
TOTAL: 0

NONE.

Addresses marked '+' were corrected by inserting the ZIP or replacing an incorrect ZIP.
USPS regulations require that automation-compatible mail display the correct ZIP.
Transmission times for electronic delivery are Eastern Time zone.
I, Joseph Speetjens, declare under the penalty of perjury that I have sent the attached document to the above listed entities in the manner
shown, ana prepared the Certificate of Notice and that it is true and correct to the best of my information and belief.

by the bankruptcy rules and the Judiciary’s privacy policies.
Date: Apr 06, 2019

Signature: /s/Joseph Speetiens

CM/ECF NOTICE OF ELECTRONIC FILING
The following persons/entities were sent notice through the court's CM/ECF electronic mail (Email)
system on April 4, 2019 at the address(es) listed below:
on behalf of Creditor Gail Lightfoot Williams cgray@bmg-law.com
Cameron Gray
Stephen E. Walker cgray@bmg-law.com
Cameron Gray
on behalf of Creditor
Cameron Gray
on behalf of Creditor
Laura Dean cgray@bmg-law.com
Cameron Gray
on behalf of Creditor Kelli S Vrla cgray@bmg-law.com
Lora L. Cain cgray@bmg-law.com
on behalf of Creditor
Cameron Gray
on behalf of Creditor Scott Savage drukavina@munsch.com
Davor Rukavina
on behalf of Counter-Claimant Scott Savage drukavina@munsch.com
Davor Rukavina
on behalf of Defendant Scott Savage drukavina@munsch.com
Davor Rukavina
The Watch Ltd. pkeiffer@romclaw.com.
on behalf of Plaintiff
Edwin Paul Keiffer
bwallaceS romclaw.com
Renaissance Radio, Inc. pkeiffer@romclaw.com.
Edwin Paul Keiffer
on behalf of Plaintiff
bwallace@romclaw.com
Renaissance Radio, Inc.
Edwin Paul Keiffer
on behalf of Counter-Defendant
pkeiffer@romclaw.com, bwallace@romclaw.com
on behalf of Counter-Defendant
The Watch Ltd. pkeiffer@romclaw.com.
Edwin Paul Keiffer
bwallace@romclaw.com
Hance
Scarborough
Wright Ginsberg S Brusilow
Edwin Paul Keiffer
on behalf of Attorney
pkeiffer@romclaw.com, bwallace@romclaw.com
on behalf of Defendant Scott Savage pkeiffer@romclaw.com.
Edwin Paul Keiffer
bwallaceSromclaw.com
Renaissance Radio, Inc. pkeiffer@romclaw.com,
Edwin Paul Keiffer
on behalf of Debtor
bwallace@romclaw.com
D.B. Zwirn Special Opportunities Fund, L.P.,
- Josiah M. Daniel, III
on behalf of Defendant
agent idaniel@velaw.com
DvB: Zw’irn Special-Opportunities -Fundi LTPt
Josiah M. Daniel, III - on behalf of Creditor
agent jdanieT@velaw.com
Schulte Roth & Zabel LLP kgrissel@velaw.com,
on behalf of Creditor
Katherine D. Grissel
sbarden@velaw.com
Katherine D. Grissel
on behalf of Creditor
Fortress Value Recovery Fund I LLC
kgrissel@velaw.com, sbarden@velaw.com
Kenneth Stohner, Jr.
on behalf of Creditor
Poppywriter, Inc. kstohner@jw.com,
lcrumble@jw.com;tsalter@jw.com
Kenneth Stohner, Jr.
on behalf of Creditor Edward J. Ferreri kstohner@jw.com,
lcrumble@jw.com;tsalter@jw.com
-Kenneth — Stohner,- Jr-.----- on behalf-Of—Creditor Les_Ker,r—LLC—kstohner@jw..com,______
—lcrumble@jw.com;tsalter®jw.com
’
”
.........
Strategic-Support Systems.,„Inc.._kstohner@.jw, com, „
Kenneth Stohner, Jr.
on behalf of Creditor
lcrumble@jw.com;tsalter@jw.com
Kenneth Stohner, Jr.
on behalf of Creditor Scott Savage kstohner@jw.com,
lcrumble@jw.com;tsalter@jw.com
Kenneth Stohner, Jr.
on behalf of Creditor
TM Century, Inc. kstohner@jw.com,
lcrumbleSjw.com;tsalter@jw.com
/

43

■

--<

^U-S. BANKRUPTCY COURT
northern district of TP •
IN THE UNITED STATES BANKRUPTCY COi/rT

ENTERED

S

FOR THE NORTHERN DISTRICT OF TEXASTAWA-' C MARSHAli
DALLAS DIVISION
- ‘
*LL CLFRK
IN RE:

•JSS5S5K,

§

§
RENAISSANCE RADIO, INC.„

§
§
§

DEBTOR.

CASE NO. 03-33479-BJH-11
(Chapter 11)

FINDINGS OF FACT AND CONCLUSIONS OF LAW REGARDING
CONFIRMATION OF SECOND AMENDED PLAN OF REORGANIZATION
CAME ON for confirmation hearing on the 8th day of January, 2004, the Second Amended
Plan of Reorganization, filed by Renaissance Radio, Inc. (the “Debtor”) on November 18,2003 (the
“Plan”). The following Findings of Fact and Conclusions of Law are entered pursuant to Federal
Rules of Bankruptcy Procedure 9052 and 9014. Such findings may be characterized as conclusions
or conclusions as findings, where appropriate.
Findings of Fact
1.

The Plan has been proposed in good faith under Section 1129(a)(3) by the Debtor and

those who are to participate in the funding of the Plan and not by any means forbidden by law and
all such parties are entitled to the protections of Section 1125 (e).
2.

Payments made or to be made by the Debtor for services or for costs and expenses

in or in connection with the Plan or case have been approved by or are subject to the approval of this
Court.
3.

The Debtor has disclosed the identities of insiders to be retained by the reorganized

4.

No govemmentally regulated rates are involved in these cases.

Debtor.

FINDINGS OF FACT AND CONCLUSIONS OF LAW REGARDING CONFIRMATION
OF SECOND AMENDED PLAN OF REORGANIZATION Page 1 of 4

45

5.

There are no dissenting classes of claims or interests. All classes of claims entitled

to vote, voted in favor of the Plan, after due consideration of which creditors who voted, are insiders
of the Debtor. Classes 1, 2 and 4 are unimpaired and are deemed to have accepted the Plan. The
class of interests voted unanimously to accept the Plan.
6.

Claims entitled to priority under 11 U.S.C. § 507(a)(l)-(7) will be paid in accordance

with Bankruptcy Code or as per the provisions of the Plan.
7.

With respect to the class of interests, such interest holders will receive more under

the plan, than in a hypothetical Chapter 7 liquidation.
8.

The Debtor’s Plan is feasible and the confirmation of the Plan is not likely to be

followed by the liquidation, or need for further financial reorganization of the Debtor except where
liquidation is required by the Plan.
9.

All fees payable under 28 U.S.C. § 1930 have been paid or the Plan provided for the

payment of such fees on the Plan Closing Date.
10.

There are no retiree benefits involved in this case.

11.

Notice ofthe confirmation hearing has been given to all of those creditors and parties

in interest listed in the mailing matrix for these cases.
12.

The Plan does not have as its principal purpose the avoidance of the application of

Section 5 of the Securities Act of 1933 (15 U.S.C. 77e) and the Debtor and Highbridge/Zwim
Special Opportunities Fund L.P. have participated in the offering and issuance of securities under
the Plan in good faith and in compliance with applicable provisions of the Bankruptcy Code.
Highbridge/Zwim Special Opportunities Fund L.P. as Agent and Lender under the Financing
Agreement, provided it closes in accordance with the Plan, is not receiving the rights under the
FINDINGS OF FACT AND CONCLUSIONS OF LAW REGARDING CONFIRMATION
OF SECOND AMENDED PLAN OF REORGANIZATION Page 2 of 4

46
' •...'Jr-:."-:"

Warrant Agreement with a view towards distribution of any securities but is receiving same for
investment purposes.
13.

The FCC has approved the transfer of the licenses and construction permits, as

applicable, from the Debtor to The WATCH, Ltd., per the requirements of the Plan.
Conclusions of Law
14.

The Court has jurisdiction over this matter as a core proceeding pursuant to 28 U.S.C.

§157 (b)(2)(A)-(L), and (O).
15.

The Plan complies with all of the applicable provisions of Title 11 of the United

States Bankruptcy Code.
16.

The Debtor has complied with the applicable provisions of the Bankruptcy Code in

proposing the Plan.
17.

The issuance of equity securities and debt securities under the Plan issued by the

Debtor or by any affiliate or successor of the Debtor, to wit: The Watch, Ltd., Caf6 Radio, LLC and
DFW Radio, Inc., specifically including the Warrant Agreement between The Watch. Ltd and
Highbridge/Zwim Special Opportunities Fund, L.P. as agent and Lender and the securities issued
by virtue of the exercise of said Warrant, satisfies the criteria of 11 U.S.C. 1145 (a)(1) and/or (2) as
applicable and any recipient of any securities pursuant thereto is not an “underwriter” as defined in
11 U.S.C. 1145(b) of the Bankruptcy Code.
SIGNED this

2

day of January, 2004.

Original Signed By
/s/ Barbara J. Houser
Copy to Party Pending
Entry of Original
BARBARA J. HOUSER,
UNITED STATES BANKRUPTCY JUDGE

Submitted by:
FINDINGS OF FACT AND CONCLUSIONS OF LAW REGARDING CONFIRMATION
OF SECOND AMENDED PLAN OF REORGANIZATION Page 3 of 4

47

I

I

4

I*

4

E. P. Keifler
SBN: 11181700
Hance Scarborough Wright
Ginsberg & Brusilow, LLP
1401 Elm Street, Suite 4750
Dallas, TX 75202
Phone: (214) 651-6500
Fax: (214) 744-2615
EMail: pkeifferfSihswgb.com
ATTORNEYS FOR RENAISSANCE RADIO, INC.
p

;

v

i

•1

:
r.

FINDINGS OF FACT AND CONCLUSIONS OF LAW REGARDING CONFIRMATION
OF SECOND AMENDED PLAN OF REORGANIZATION Page 4 of 4

48

